Record Press Inc., 229 West 36th Street, New York, N.Y. IDDIB•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE □F NEW YORK.
SS:

88513

AFFIDAVIT DF SERVICE

COUNTY □f NEW Y □RK
Howard Daniels being duly sworn. deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 24th day of September 2□21 deponent served 3 copies of the within
BRIEF FDR AMICI CURIAE DF THE AMERICAN CIVIL LIBERTIES UNION,
INSTITUTE FDR FREE SPEECH, AND THE RUTHERFORD INSTITUTE
IN SUPPORT DF RESPONDENT
upon the attorneys at the addresses below. and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Richard A. Morris
Rogers. Marris 6 Grover. l.L.P.
5718 Westheimer Raad. Suite 1200
Houston. TX 77057
(713) 960-6019

Michael B. Kimberly
MCOERMOTT Wlll 6 EMERY
The McOermolt Building
500 North Capitol Street. NW
Washington. OC 200□1
(202) 756-89□1

Attomefs for Petitioner

Attornefs for l?espondenls

I. Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct. executed an September 24. 2 □21. pursuant ta Supreme Court Rule 2S.5(c). All parties required to be served. have been
served.
Howard Daniels

Sworn to me this

September 24. 2□21
Jasmine Williams
Notary Public. State of New Yark
Na. OIWl63S794S
llualified in llueens County
issian Expires September 16. 2023

Case Name: Houston Community College Services v. Wilson
Docket/Case No. 2□-804

